o

o8

20
No.

i

l

v

IN THE
SUPREME COURT OF THE UNITED STATES

i
I

MARIO ALLAN MONTANO, Petitioner,
V.

KAMESHIA D. GANT, Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
MICHIGAN SUPREME COURT

PETITION FOR WRIT OF CERTIORARI

Mario Allan Montano, Petitioner
3647 Springdale Dr.
Little River, SC 29566
(843) 582-7503
almontano29582(a),gmail.com
November 13, 2020

i:

QUESTION PRESENTED
The Michigan Supreme Court issued an order against the Petitioner on October 5,2020 in
an uncontested case that resulted in the total deprivation of any ability for the Petitioner to litigate
any existing or future matter in the Michigan Supreme Court. The questions presented are:
I.

Whether the Michigan Supreme Court violated its jurisdiction by issuing an
order dismissing the Petitioner’s case thus depriving the Petitioner of his right
to equal protection under the law pursuant to U.S. Const. Amend. XIV § 1.

II.

Whether the Michigan Supreme Court violated its jurisdiction by issuing a
filing and court fee injunction against the Petitioner depriving him of his right
to equal protection under the law pursuant to U.S. Const. Amend. XIV § 1.
LIST OF PARTIES

Pursuant to Supreme Court Rule 14, the following is a list of all parties to the proceeding in the
court whose judgment is sought to be reviewed:
1. Mario Allan Montano, Petitioner and a man naturally born in the United
States.
2. Kameshia D. Gant, a State of Michigan, Oakland County Circuit Court
Judge.
LIST OF CASES
1. In Re Montano, No. 353392, Mich. Ct. App., Judgment entered June 16, 2020.
2. In Re Montano, No. 161499, Mich., Judgment entered October 5, 2020.

n

TABLE OF CONTENTS
QUESTION PRESENTED

ii

LIST OF PARTIES

ii

LIST OF CASES

ii

INDEX TO APPENDICES

iv

TABLE OF AUTHORITIES

v

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED

1

STATEMENT OF THE CASE............................................

2

MICHIGAN COURT OF APPEALS ORDER APPEALED
MICHIGAN SUPREME COURT ORDER APPEALED....

2
3

REASONS FOR GRANTING THE PETITION..................................................

4

THE INDIGENT PETITIONER WAS ENTITLED TO COURT FEE WAIVERS
COA DEPRIVED THE PETITIONER HIS RIGHT TO A FEE WAIVER...........
MSC DEPRIVED THE PETITIONER HIS RIGHT TO A FEE WAIVER...........
JUSTICE DEMANDS THE GRANTING OF THIS PETITION..........................

4

CONCLUSION

5
6
6
7

iii

INDEX TO APPENDICES
Appendix A - Decision of the Michigan Court of Appeals Denying Petitioner’s Fee Waiver
Request
Appendix B - Decision of the Michigan Court of Appeals Denying Petitioner’s De Novo Review
Request of the Fee Waiver Denial
Appendix C- Decision of the Michigan Court of Appeals Dismissing the Case
Appendix D- Decision of the Michigan Supreme Court Dismissing the Case

iv

TABLE OF AUTHORITIES
Pages

Constitutional Law
Mich. Const. Art. I § 2........
U.S. Const. Amend. XIV § 1

5,6
passim

Statutory Law
28 U. S. C. § 1257(a)

1

Court Rules
MCR 2.002(C)
MCR 7.211.....
MCR 7.315(D)
Rule 13...........
Rule 14...........
Rule 16.1........

4,5
4

6
1
li

7

Other Authorities
IOP 7.219(G)-2
IOP 7.300........

4,5
5

v

IN THE SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
The Petitioner respectfully prays that a writ of certiorari issue to review the judgments
below.

OPINIONS BELOW
The unpublished judgment from the Michigan Supreme Court, the highest court in
Michigan, to be addressed is the decision of the Michigan Supreme Court dismissing No. 161499
(Appendix D).
The unpublished judgment from the Michigan Court of Appeals to be addressed is the
decision of the Michigan Court of Appeals dismissing No. 353392 (Appendix C).

JURISDICTION
The decision from Mich, to be reviewed was issued on October 5, 2020 and is found in
Appendix D. This Petition is timely filed per Rule 13. The jurisdiction of this Court is invoked
under 28 U. S. C. § 1257(a).

CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
“All persons bom or naturalized in the United States and subject to the jurisdiction thereof,
are citizens of the United States and of the State wherein they reside. No State shall make or
enforce any law which shall abridge the privileges or immunities of citizens of the United States;
nor shall any State deprive any person of life, liberty, or property, without due process of law; nor
deny to any person within its jurisdiction the equal protection of the laws.” U.S. Const.
Amend. XIV § 1.

1

STATEMENT OF THE CASE
The Honorable Kameshia D. Gant (“the Respondent”) was assigned to the case of
Wimmer v. Montano1 (“Trial Case”) Case on May 4, 2019. The Petitioner is the Respondent in
the Trial Case.
MICHIGAN COURT OF APPEALS ORDER APPEALED
The Petitioner filed a Complaint for Writ of Superintending Control against the Respondent
and a Motion to Waive Court Fees with the Michigan Court of Appeals (“COA”) on April 9,2020.
The Motion to Waive Court Fees provided irrefutable evidence that the Petitioner had been
receiving federal financial assistance to purchase healthcare under the Affordable Care Act a/k/a
Obamacare since January 1,2020. The Petitioner’s court fees were conditionally waived pending
the review of the motion to waive court fees. The case of In Re Montano2 (“COA 353392”) was
initiated on April 9, 2020. The Respondent did not file any documents or contest COA 353392
in any manner since the case was initiated. COA 353392 was uncontested.
The Honorable Elizabeth L. Gleicher (“Judge Gleicher”) issued an order denying the
Motion to Waive fees in COA 353392 on April 21, 2020 (Appendix A).

The Honorable

Christopher M. Murray (“Chief Judge Murray”) issued an order denying the de Novo review of
the Fee Waiver Request in COA 353392 on April 28, 2020 (Appendix B). The order stated that
the Petitioner was required to pay the conditionally waived fees by May 19, 2020. The order stated
that the failure to pay the fees would result in a dismissal of the Petitioner’s pleadings in COA
353392.

1 Wimmer v. Montano, 2017-854298-PP (6th Mich. Cir. Ct. June 20, 2017).
2 In Re Montano, 353392 (Mich. Ct. App. June 16, 2020).

2

The Petitioner had not paid any fees as of June 16, 2020. The COA issued an order
dismissing the case for the Petitioner’s failure to pay the fees (“COA Dismiss Order”) on June
16, 2020 (Appendix C). The Petitioner seeks the following orders from this Court regarding the
COA actions should the Petition be granted:
1. An order setting aside the COA Orders in Appendices A-C.
2. An order instructing the COA to reopen COA 353392.
3. An order granting the Petitioner a fee waiver in COA 353392.
MICHIGAN SUPREME COURT ORDER APPEALED
The Petitioner fried an application for leave to appeal the COA Dismiss Order and a Motion
to Waive Fees with the Michigan Supreme Court (“MSC”) on June 19, 2020. The Motion to
Waive Fees provided irrefutable evidence that the Petitioner had been receiving federal financial
assistance to purchase healthcare under the Affordable Care Act a/k/a Obamacare since January 1,
2020. The Petitioner’s court fees were conditionally waived pending the review of the motion to
waive court fees. The case of In Re Montano3 (“MSC 161499”) was initiated on June 19, 2020.
The Respondent has not filed a document or contested MSC 161499 since its initiation. MSC
161499 is uncontested.
The MSC has failed to review or issue an order regarding the Motion to Waive Fees since
the initiation of MSC 161499. Chief Justice Bridget M. McCormack (“CJ McCormack”) of the
MSC issued an order dismissing the Petitioner’s application for leave to appeal for failure to pay
fees (“MSC Dismiss Order”) on October 5, 2020 (Appendix D). The order issued contained no
legal authority upon which the decision relied upon. In addition to dismissing the case, the order
included the following:

3 In Re Montano, 161499 (Mich. October 5, 2020).

3

1. An order instructing the Court Clerk to reject all filings from the Petitioner until over
$1000 in sanctions were paid in other cases (“Filing Injunction”).
2. An order instructing the Court Clerk not to waive filing fees as required by Court rules
when the Petitioner files a Motion to Waive Fees (“Fee Waiver Injunction”).
The Petitioner cannot afford to pay $1000 or court fees and has been deprived of any ability
to litigate or defend himself in any manner in the MSC based on the MSC Dismiss Order.
The Petitioner seeks the following orders from this Court regarding CJ McCormack's
actions should this Petition be granted:
1.

An order setting aside the CJ McCormack’s order dismissing MSC 161499.

2.

An order instructing the CJ McCormack to reopen MSC 161499.

3.

An order granting the Petitioner a fee waiver in MSC 161499.

REASONS FOR GRANTING THE PETITION
The Petitioner has been deprived of rights in the COA and the MSC based on rulings in
uncontested cases. The information below will show that these rights were denied based on
violations by the state courts of the Petitioner’s rights pursuant to U.S. Const. Amend. XIV § 1.
The Petitioner asserts his Petition must be granted based on court actions depriving him of his
constitutional rights that have egregiously harmed him by dismissing two cases in error and further
depriving him of any ability to defend himself in any case in the Michigan Supreme Court.
THE INDIGENT PETITIONER WAS ENTITLED TO COURT FEE WAIVERS
The COA and MSC each publish Internal Operating Procedures (“IOP”) that supplement
Michigan Court Rules that apply to their respective Courts.
“A party may move to waive fees owing to the Court by filing a motion conforming to
MCR 7.211 that is accompanied by an affidavit disclosing the reason for the inability to
pay the fee. Under MCR 2.002(C), receipt of public assistance requires the suspension of
the fees.” IOP 7.219(G)-2

4

IOP 7.219(G)-2 applies to the COA and states that fees must be waived to any litigant that
files a motion to waive fees and qualifies based on MCR 2.002(C) regarding receiving public
assistance. There is no Internal Operating Procedure that specifically deals with this subject for
the MSC.
“Except where the Supreme Court operates differently than the Court of Appeals by statute
or court rule, the Court of Appeals IOPsl may be consulted to determine Supreme Court
practice and procedure on matters not specifically addressed in these IOPs.” IOP 7.300 at
2.
Based on IOP 7.300 any litigant that meets the expectations in MCR 2.002(C) must be
granted a fee waiver by both the MSC and the COA.
“For purposes of this rule, means-tested public assistance includes but is not limited to any
other federal, state, or locally administered means-tested income or benefit.” MCR 2.002(C)(6).
Federal financial assistance under Obamacare is based on the income of recipients. The
Petitioner received Obamacare and was entitled to a fee waiver in all cases in the COA and the
MSC. Chief Justice Bridget M. McCormack of the MSC affirmed the Petitioner’s qualification
by granting the Petitioner a fee waiver in the case of Wimmer v. Montand* (“MSC 161121”) on
March 18, 2020.
The Petitioner is indigent and cannot afford filing fees or any fee of $75 or more based on
Michigan legal authority.
COA DEPRIVED THE PETITIONER HIS RIGHT TO A FEE WAIVER
The COA violated the Petitioner’s right to equal protection under the law pursuant to Mich.
Const. Art. I § 2 and U.S. Const. Amend. XIV § 1 by denying the Petitioner’s right to a fee waiver.
The denial of the fee waiver resulted in the COA Dismiss Order (Appendix C). The Petitioner was

4 Wimmerv. Montano, 161121 (Mich. May 26, 2020).

5

denied his right to litigate in COA 353392, based on the COA’s error depriving an indigent litigant
his right to defend himself without paying court fees in an uncontested case.
MSC DEPRIVED THE PETITIONER HIS RIGHT TO A FEE WAIVER
The MSC failed entirely to even issue an order on the Petitioner’s motion to waive fees.
The Petitioner was entitled to a grant of a fee waiver in MSC 161499. The Court fees had been
conditionally waived by the MSC on June 19, 2019 pending an order on the motion to waive fees
that the MSC never issued.
“A motion may not be decided or an order entered by the Court unless all required
documents have been filed and the requisite fees have been paid.” MCR 7.315(D).
Since the MSC did not rule on the motion to waive fees, the MSC DID NOT have
jurisdiction to issue an order in MSC 161499 pursuant to MCR 7.315(D). The MSC violated the
Petitioner’s right to equal protection under the law pursuant to Mich. Const. Art. I § 2 and U.S.
Const. Amend. XIV § 1 by failing to issue an order on the motion to waive fees and dismissing
the case without jurisdiction to do so.
Furthermore, the MSC issued a filing injunction and a fee waiver injunction without any
legal authority to do so.
The result was that the Petitioner has been deprived of any ability to defend or litigate any
matter in the MSC based on an uncontested case where his constitutional rights have been violated.
JUSTICE DEMANDS THE GRANTING OF THIS PETITION
A poor litigant was deprived his right to seek justice in the Michigan Court of Appeals and
Michigan Supreme Court based on a deprivation of his rights in uncontested cases. The Petitioner
has now been deprived of any ability to defend or litigate any matter in the Michigan Supreme
Court based on orders issued without any jurisdiction to do so because he is poor.

6

Although this Court normally deals with more weighty matters than this, this Court must
protect the rights of the poor to defend themselves and litigate in a court of law especially in
uncontested cases based on the laws of a state. The Petitioner prays that this Court will grant this
Petition given this absolute deprivation of his rights eliminating any ability to seek justice in the
Michigan Court of Appeals and Michigan Supreme Court.

CONCLUSION
The Petitioner has been egregiously harmed and is a victim of a travesty of injustice by the
Michigan Court of Appeals and Michigan Supreme Court who deprived him of equal protection
under law in uncontested cases without basis or merit.
The petition for a writ of certiorar i should be granted. If this petition is not challenged,
relief should simply be granted by this Court via summary disposition pursuant to Rule 16.1.
Respectfully submitted,

mu

Mario Allan Montand/ Petitioner
Date: November 13, 2020

7

